                                                                                     ...   Page 1 of 2
                                   NATIONAL SCI~NCEFOUNDATION
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230




           OFF~CEOF
      INSPECTOR GENERAL




     MEMORANDUM




    --
     -Date: Eebruary 2, 19


                                                                              gations



     RE:     Closeout-
I            1


     Background

      On December 15, 1998, NSF-OIG ~nvesti~itions       received q m p l a i n t from
                            sq. of the U.S. Attorney's Eastern Distnct o    issouri office. The
      re ator a1 eged that                        dD        s      e      d his name and
      credentials to obtain federal funding or NSF. NIH. and VA =ants. In addition. the
                                                                    u

      relator alleged that                                      harged salaries to a NSF grant
      for individuals who were working on other grants. The majority of the complaint
      pertained to NIH grants. The relator states that he did not work on these grants. ~ h          e   l
    -omplaint         was under seal until February 2, 1999.



     The invpstigation revealed that               ad originally listed the relator on his p~;oposal
     for NSF funding. However,                      approved by the agency did not contain the
     relator's name as an individual that would be working on the project. The relator was
     never listed as a PI or a Co-PI. The NSF Chief of Cost Analysis/Audit Resolution
       ran chi^^^ reviewed the grant jacket with personnel from OIG and OGC and             '
     determined that there were no irregularities in the grant file paperwork with respect to
     information provided by the relator.

     Due to the seal on the complaint, investigators were prohibited from contactin-
     -without              contactin                           accounting documentation,
     investigators were unable to                        grant was charged for work the rklator
     did not complete, or if salaries were charged to the grant for other individuals not
     working on the grant.
                       OGC contacted the AUSA in charge of the complaint and notified him that NSF is riot
                       interested in joining the complaint. In addition, OGC infonned the AUSA that if NIH
                       discovers misuse of NSF funds while conducting its investigation, NSF would at that
                       time be willing to review the NSF related material.

                       Conclusions

                       Based on the determination that there were no, irregularities discovered with the NSF
                       grant, and the fact that the seal on the compl:&ntprohibited investigators from contacting
                       the awakee institution to obtain further information regarding the use of NSF funds: this
                                                     , case may be re-opened at a future date upon notificatidn by
                       case is closed. ~ i w e v e rthis
.....   ..   . .   .   NM orthe AUSA that there
                                          .~      ~- was a misuse of NSF funds.
                                                         - - .- -                                _
                                                         ..            --   .   ..   .   ,   .   .,   ,   .
                                                                                                              -   "   . - . -.   .....   _..
                                                                                                                                           _.   .
